No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
MIGUEL ANGEL BAEZ-CASTILLO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
On this date, October 15, 2020, I served the attached Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari on this Court and
each party to the proceeding. I have served the Supreme Court of the United States
via Federal Express, standard-overnight shipping. I served the Solicitor General
and Mr. Baez via the United States Postal Service, first-class mail. Per request, I
served Assistant United States Attorney Leigha Simonton by email.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, TX 75242
leigha.simonton@usdoj.gov

Solicitor General
Department of Justice
Washington, D.C. 20530

Respectfully submitted October 15, 2020.
/s/ Taylor Wills Edwards “T.W.” Brown
Taylor Wills Edwards “T.W.” Brown
Assistant Federal Public Defender
Northern District of Texas
P.O. Box 17743
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Taylor_W_Brown@fd.org
Texas Bar No. 24087225

